OFFICE OF THE STATE’S ATTORNEY
COOK COUNTY, ILLINOIS
KIMBERLY M. FOXX
STATE’S ATTORNEY

500 Richard J. Daley Center
CHICAGO, ILLINOIS 60602

PAUL A. CASTIGLIONE
ASSISTANT STATE’S ATTORNEY

WRITER’S DIRECT LINE:
(312) 603-2350

WRITER’S E-MAIL ADDRESS:
PAUL.CASTIGLIONE@COOKCOUNTYIL.GOV

WRITER’S DIRECT FAX:
(312) 603-3000

December 16, 2019
Hon. Scott S. Harris, Clerk of the Court
Supreme Court of the United States
Office of the Clerk
One First Street, N.E.
Washington, D.C. 20543-0001
Re:

Wilson v. Cook County, Docket No. 19-704

Dear Mr. Harris:
Matthew D. Wilson and Troy Edhlund filed a petition for writ of certiorari in the aboveentitled case on November 27, 2019. My office received this petition on December 3, 3019.
Respondents’ brief in opposition is presently due on January 2, 2020. I am respectfully requesting a
30-day extension of time to file Respondents’ brief in opposition.
Because my present briefing deadlines prevent me from immediately beginning work on this
case, I am submitting this request for an extension of time of 30 days, up to and including February 3,
2020, to file Respondents’ brief in opposition.
Thank you very much for your consideration.
Sincerely,
s/Paul Castiglione
Paul A. Castiglione
Assistant State’s Attorney
500 Richard J. Daley Center
Chicago, Illinois 60602
(312) 603-2350

cc:

David G. Sigale, Esq. (via U.S. mail and e-mail: dsigale@sigalelaw.com)

